<html>
<title> - U.S. COUNTERNARCOTICS OPERATIONS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







            U.S. COUNTERNARCOTICS OPERATIONS IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2014

                               __________

                           Serial No. 113-120

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-589 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois 
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William R. Brownfield, Assistant Secretary of 
  State, Bureau of International Narcotics and Law Enforcement 
  Affairs, U.S. Department of State..............................     6
Mr. James L. Capra, Chief of Operations, Drug Enforcement 
  Administration, U.S. Department of Justice.....................    14
Ms. Erin Logan, Principal Director for Counternarcotics and 
  Global Threats, Office of the Under Secretary of Defense, U.S. 
  Department of Defense..........................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable William R. Brownfield: Prepared statement..........     8
Mr. James L. Capra: Prepared statement...........................    16
Ms. Erin Logan: Prepared statement...............................    27

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55

 
            U.S. COUNTERNARCOTICS OPERATIONS IN AFGHANISTAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order 
because you have been patiently awaiting us for a while, and 
Mr. Cicilline is coming right on cue.
    After recognizing myself and the ranking member, Ted 
Deutch, for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute 
each.
    We will then hear from our witnesses, and without objection 
the witnesses' prepared statements will be made a part of the 
record, and members may have 5 days in which to insert 
statements and questions for the record subject to the length 
limitation in the rules.
    The Chair recognizes herself for 5 minutes.
    Since Fiscal Year 2002, the U.S. has appropriated almost 
$7.5 billion for counternarcotics efforts in Afghanistan. This 
funding includes over $4 billion for the Department of State's 
Bureau of International Narcotics and Law Enforcement Affairs, 
INL; nearly $3 billion for the Department of Defense Drug 
Interdiction and Counter Drug activities, and just over $200 
million for the Drug Enforcement Administration, DEA. This 
amounts to about 7 percent of the $102 billion the U.S. has 
appropriated for relief and reconstruction in Afghanistan over 
that period of time.
    Last year alone we allocated nearly $1 billion toward these 
counternarcotics efforts. This is a significant amount of U.S. 
taxpayer money, and it is extremely important that this 
subcommittee continue to conduct its oversight role to ensure 
that we are achieving our goals and objectives, and that this 
money is being properly spent.
    Yet, despite all of this money being spent, 2013 was a 
record-breaking year in terms of poppy cultivation in 
Afghanistan. Afghanistan produced over 80 percent of the 
world's opium last year, and the illegal drug trade is a 
contributing factor to many of the major challenges facing 
Afghanistan and the U.S. The drug trade helps to generate 
hundreds of millions of dollars for the Taliban and other 
extremist groups every year. It creates an increase in 
corruption, and it creates a very serious public health 
challenge in Afghanistan as more and more Afghans get addicted 
to the readily available drugs.
    The narco-terrorism connection is particularly troubling 
given the vast sums of money extremist groups can extract from 
the drug trade and to fund terrorist activities against the 
United States and our interests worldwide. And the money drug 
trafficking generates permeates its way through all levels of 
government, as corruption and drug trafficking in Afghanistan 
go hand in hand.
    Last May, I led a codel to Afghanistan and had Foreign 
Affairs Committee colleagues, Mr. Kennedy and Dr. Bera along, 
and we had the opportunity to see firsthand the work that the 
INL, DoD, and the DEA are doing on the counternarcotics front, 
and get briefed by the folks on the ground about the current 
situation. We also visited the DEA Center in Afghanistan, and 
it was quite impressive to see their operations and how their 
programs are run.
    I commend these brave men and women for doing their 
absolute best to fight this very serious problems with their 
resources.
    The amount of capacity-building, specialty training, and 
information sharing that INL, DoD, and DEA have done is a 
testament to their commitment to aggressively fight this 
threat. And though there have been great strides made, I remain 
worried about the future of counternarcotics efforts in 
Afghanistan as we approach the 2014 withdrawal with even 
greater uncertainty.
    All of our counternarcotics efforts in Afghanistan to this 
point have relied heavily on a robust U.S. military presence. 
To add insult to injury, Karzai has not been willing to provide 
vital resources to help the eradication teams in Afghanistan. 
As a result of the U.S. drawdown, many of our operations have 
had to be scaled back, and we have reduced our counternarcotics 
presence in Afghanistan in conjunction with the dwindling 
number of troops. And now with the post-2014 U.S. footprint 
still in doubt, we are making it even more difficult for these 
agencies that will have to make corresponding decreases in 
their enduring presence and to make adjustments to their 
operations.
    I'm concerned that because DEA personnel is being scaled 
back by over 70 percent, our counternarcotics efforts will be 
undermined and will not be successful.
    As Ambassador Brownfield notes in his testimony, these 
counternarcotics efforts do not take place in a vacuum. 
Addressing the drug issue in Afghanistan is a key part of our 
overall strategy for Afghanistan and for the overall war on 
terror. So much attention has been given to the Bilateral 
Security Agreement, the upcoming elections in April, and the 
mercurial nature of Karzai that we must not lose sight of the 
counternarcotics threat that poses a direct threat to our 
national security and the regional stability.
    And now I'd be glad to turn to Mr. Cicilline for any 
opening statements that he would like to make.
    Mr. Cicilline. Thank you, Madam Chair. Thank you, Chairman 
Ros-Lehtinen and Ranking Member Deutch for holding today's 
hearing on this very important issue.
    As we continue drawing down combat operations in 
Afghanistan it's increasingly the responsibility of the Afghan 
people to operate, build, and maintain their own civilian and 
military capacity. The United States has built an important 
foundation for Afghanistan's future, but long-term stability 
and a sustainable peace in the region can only be accomplished 
when the people of Afghanistan take on these responsibilities.
    Unfortunately, ongoing and prevalent narcotics activity in 
Afghanistan has led to aggressive momentum in many areas, 
narcotics activities correlated with political and economic 
instability, and has a substantial effect on the quality of 
life. The United States must continue to monitor 
counternarcotics efforts in Afghanistan to determine how U.S. 
interests may be best served as we transition our combat forces 
out of the country.
    I look forward to hearing the perspectives of the witnesses 
we have assembled to discuss U.S. counternarcotics efforts in 
Afghanistan, and how they will shape our relationship going 
forward.
    And with that, I'd like to yield the balance of my time to 
our ranking member, Mr. Deutch.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Cicilline. 
And we are pleased to give the time to Mr. Deutch to make his 
opening statement, and then we will turn to Mr. Brooks for a 
minute statement, et cetera. Thank you.
    Mr. Deutch. Thank you, Madam Chairman, and I thank my 
friend from Rhode Island. And thanks, Madam Chairman, for 
holding this hearing.
    While most of our discussions about Afghanistan are focused 
on troop numbers and reconciliation talks, counternarcotics is 
an issue that's going to play a significant role in shaping 
Afghanistan's long-term future. Afghanistan's narcotics trade 
has been a financial boon for the insurgency in Afghanistan as 
the world's number one producer of opium providing 80 percent 
of the world's heroin supply. Afghan drugs make their way to 
Russia, to Europe, and just over the border to Iran where the 
drug addiction rate is the highest in the world.
    The illicit drug trade in Afghanistan accounts for close to 
half of the Taliban's budget. The undeniable link between drug 
money and terrorism funding means that this isn't just an 
Afghan threat, it is an international security threat.
    For many years, U.S. efforts to combat the illicit Afghan 
drug trade focus on poppy eradication, but the emphasis on 
eradication did little to actually alleviate the drug 
production problem. The focus on eradication instead left rural 
farmers without a steady income and more vulnerable to the law 
of extremism or other black market economic activities, but 
economic opportunity and security go hand in hand. Programs to 
replace poppies with alternative crops won't succeed unless 
there is a more holistic approach. Simply giving farmers what 
seeds to plant in lieu of poppies won't do anything if Afghan 
wheat has not been marketed as a viable option to importers. 
Efforts to improve Afghanistan's agriculture exports will only 
decrease the desire for Afghan farmers to cultivate the poppy. 
They'll strengthen Afghanistan's legitimate economy instead of 
propping up the black market drug trade.
    Programs like the Hellman Food Zone, a comprehensive effort 
funded by the U.S., Britain, and Denmark not only established 
alternative crops, but provided for crop storage and overland 
shipping routes out of the province. That's seeing success, and 
I hope we have success replicating these efforts in Kandahar 
and elsewhere around the country.
    I know that many see the rise in poppy cultivation as an 
indicator that counternarcotics operations have failed, but we 
have, in fact, seen real and serious progress in many of our 
joint counternarcotics programs, most notably interdiction 
efforts with DEA as the lead law enforcement agency have led to 
vetted and trained units of counternarcotics police of 
Afghanistan.
    As Mr. Capra will explain in his testimony, these units 
have led to close to 2,500 operations that resulted in over 
2,200 arrests in the past 9 months. This is a good news story.
    Narcotics trade and terrorism funding go hand in hand 
across the globe, and I commend the DEA's activities to combat 
this worldwide, but in a country as frail as Afghanistan, and 
as fragile as Afghanistan is, the security risks from propping 
up insurgents with hundreds of millions of dollars to fund 
their operations can't be overstated.
    The United States trained and supported Counternarcotics 
Justice Center heard 700 drug cases last year, but without 
proper support from the Afghan Government, the CNJC has largely 
prosecuted low-level couriers.
    I commend Ambassador Brownfield and his team, and INL for 
the work that they've done to support efforts to go after high-
level traffickers which resulted in the successful prosecution 
and incarceration of a U.S. designated drug kingpin, but the 
fact remains the United States alone cannot stop the Afghan 
drug trade. We can provide the Afghan Government with the 
necessary training and support, but no amount of funding can 
provide the political will to aggressively confront all aspects 
of drug production and trafficking.
    I do believe that there are elements of the Afghan 
Government deeply committed to counternarcotics. The Minister 
of Counternarcotics said last month that there is a need for 
severe punishment of traffickers, adding, ``I hope that in 2014 
we will witness a declining trend in both cultivation and 
production of opium.'' So, as we look ahead to the future of 
U.S. operations in Afghanistan, we have to turn our focus to 
ways to help the Afghans sustain the counternarcotics regime 
that we have helped them build.
    What can we do to insure that the programs we have worked 
so hard to build from the Afghan Counternarcotics Police, to 
the prosecutors of the Counternarcotics Justice Center, and the 
staff of the hundred drug treatment centers, what can we do to 
help those continue to function with a decreased U.S. presence? 
And how can we ensure that our reduced security operations 
don't stretch the Afghan security forces so thin that 
counternarcotics simply becomes an afterthought.
    The U.S. has never conducted counternarcotics operations of 
this scale in a war zone, and I commend our witnesses for the 
work that your agencies have done in a most challenging 
environment. I look forward to hearing from each of you, and I 
yield back.
    Ms. Ros-Lehtinen. Amen. Thank you so much. Mr. Cotton, 
we're pleased to hear from you. Okay. Mr. Weber.
    Mr. Weber. I'm going to follow the Senator's lead.
    Ms. Ros-Lehtinen. Okay, let me see. Who's there next to 
you? Mr. Collins. Oh, boy, oh, boy, pithy, very pithy.
    Mr. Cotton. We've kept the witnesses waiting long enough.
    Ms. Ros-Lehtinen. Okay, thank you. Ms. Meng here? Thank 
you.
    Ms. Meng. Don't worry, mine is brief. Thank you, Madam 
Chairwoman and Ranking Member Deutch for holding this important 
hearing. Thank you to our witnesses for being here today, as 
well.
    U.S. operations in Afghanistan are critical to the security 
of the United States, especially now that our decade long 
military presence will be decreasing. Concentrating on 
counternarcotics operations is essential. Afghanistan remains 
the world's primary source of opium poppy cultivation and has a 
large hand in drug production and distribution.
    Drug trafficking funnels money into terrorist groups and 
contributes to economic and political instability. The drug 
trade in Afghanistan threatens not only the country itself, but 
also the entire Middle East region and the United States. 
Therefore, I'm very interested in how the U.S. can sustain and 
improve its counternarcotics operations in Afghanistan. I look 
forward to hearing from today's panelists from the Departments 
of State, Justice, and Defense about this serious problem. 
Thank you.
    Ms. Ros-Lehtinen. Thank you, Ms. Meng. My Florida 
colleague, Ms. Frankel, is recognized.
    Ms. Frankel. Thank you, Madam Chair. Thank you for this 
hearing, and thank you to the witnesses for being here. And I 
will listen with great interest and reserve my questions.
    Ms. Ros-Lehtinen. Thank you, ma'am. And Mr. Connolly is 
recognized.
    Mr. Connolly. Well, Madam Chairwoman, as you know, I served 
on the Senate Foreign Relations Committee many years ago where 
I looked at the drug problem. I have to say it's deja vu all 
over again when I look at this data. You know, we invest a lot 
of money, we have a lot of personnel, and let's see, opium 
cultivation increased by 36 percent between 2012 and 2013 to a 
record 516,000 acres in Afghanistan, a country where we have 
troops, we've been fighting a war, difficult but we have a lot 
more control than if we're not there. And it just--I'm going to 
be real interested in hearing about progress and what we mean 
by progress, because what I see is the United States, frankly, 
losing this war. I don't want it to lose the war, but I'm 
skeptical about the progress, the milestones being alleged, so 
I look forward to hearing the testimony of our witnesses. Thank 
you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. And we thank the 
witnesses for their wonderful patience waiting an hour to start 
our hearing. But I always say as a Cuban refugee who lost her 
homeland to communism, I love getting interrupted by votes. 
This is not a problem.
    And first we welcome a dear friend to our subcommittee and 
to me personally, Ambassador William Brownfield, Assistant 
Secretary at the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs.
    Prior to his appointment, Ambassador Brownfield was U.S. 
Ambassador to Colombia, to Venezuela, and to Chile, and has 
served as Deputy Assistant Secretary for Western Hemisphere 
Affairs. He holds the personal rank of Career Ambassador, the 
highest rank in the U.S. Foreign Service. Welcome again, Mr. 
Ambassador. I think both of us would agree that we would enjoy 
spending today in a field hearing in Miami instead of being in 
DC, but welcome.
    And next we're so pleased to welcome a gentleman who also 
has a Miami connection. It's just a coincidence, honestly. We 
welcome Mr. James Capra who is Chief of Operations at the Drug 
Enforcement Administration.
    Mr. Capra has had a long and distinguished career in law 
enforcement having served in numerous roles in DEA including a 
Special Agent in Charge of the Dallas Field Division, and 
before this as Associate Special Agent in Charge of the Miami 
Field Division. Prior to his career in law enforcement, Mr. 
Capra served in the United States Navy, the Navy Reserves, the 
Air National Guard, and as a military intelligence officer with 
the U.S. Army Reserves. Thank you, sir, for being with us.
    And third, I'm so pleased to welcome to our subcommittee 
hearing Ms. Erin Logan, Principal Director for Counternarcotics 
and Global Threats for the Deputy Assistant Secretary of 
Defense. She previously served as the Chief of Staff and 
Special Assistant for the Assistant Secretary of Defense in the 
Office of the Under Secretary of Defense for Policy. Prior to 
this, she was a senior professional staff member of the Senate 
Foreign Relations Committee where she was a primary advisor to 
then-Senator Joe Biden on defense issues. I believe that we has 
someone here on the dias who has some kind of connection to the 
Senate Foreign Relations Committee. I'm not sure who it is, Mr. 
Connolly, but we welcome all three of you to our subcommittee. 
And, Ambassador Brownfield, we will begin with you, amigo.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
 SECRETARY OF STATE, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Brownfield. Thank you, Madam Chairman, Ranking 
Member Deutch, members of the committee. Thank you for the 
opportunity to appear today to discuss counternarcotics efforts 
in Afghanistan. I agree with you, Madam Chairman, far better 
were we having this meeting today in Miami, but we will meet 
where we are and deal with the world as it is, not as we might 
wish it would be.
    Ladies and gentlemen, I have just returned from Afghanistan 
last week and I look forward to sharing my observations on this 
essential topic.
    Members of the committee, we know that Afghanistan is the 
source of more than 80 percent of the world's illegal opiates, 
and that drugs represent the largest domestic source of income 
for the Taliban, but there are key facts that we do not know. 
We do not know the security picture we will encounter after 
2014, or the exact contours of the bilateral relationship, or 
the resources that will be available to us, or the posture of 
the international community.
    We have learned lessons in the past 40 years about anti-
drug programs. We learned that drug strategies take time. It 
takes years to get into a crisis, and years to resolve it. The 
strategy must be comprehensive. You cannot solve a crisis by 
addressing just one element. And the strategy must be 
adaptable, capable of responding to inevitable changes by the 
trafficking adversary.
    Last week in Kabul I discussed INL assistant efforts with 
the Minister of Counternarcotics and the Minister of Interior. 
We agreed on the need for a multifaceted approach with strong 
Afghan Government leadership. We concluded that our drug 
cooperation should be driven by five guiding principles. First, 
focus on sustainable Afghan capabilities. Capacity building is 
more important than equipment, and must be sustainable over the 
long term. Second, emphasize Afghan priorities and strategies. 
If there is no Afghan buy-in our strategies will not succeed. 
Third, deliver on previous commitments. If we lose the trust of 
the Afghan people cooperation withers. Fourth, integrate 
international donors and regional partners into the strategy. 
We cannot do this alone, and they consume far more of the 
Afghan product than we do. And fifth, given changing security 
and resource realities after 2014, we must adapt our monitoring 
and evaluation strategies to continue to insure taxpayer funds 
are protected and our programs are as effective as they can be.
    Members of the committee, you will in my written statement 
a summary of our counter drug programs in Afghanistan. You will 
read of programs designed to address crop control, eradication, 
alternative development, interdiction, prosecution, training 
and capacity building, and demand reduction. You will read of 
some of our efforts to engage important international partners 
in the United Nations, the UK, other European institutions, and 
Central Asian governments. You will read of our proposed tiered 
approach to monitoring and evaluation where we use the best 
available sources to evaluate our programs in the field in 
light of security and resources. I hope you find a 
comprehensive and sustainable drug strategy.
    Madam Chairman, I detect pessimism in some media reporting 
on Afghan drugs. I do not share it any more than I shared the 
pessimism of those who still reported in 2007 that Plan 
Colombia was a failure. Counternarcotics is critical to the 
success of Afghanistan post-2014, and requires continued 
support and attention. I do not promise you success this year 
or next year, but I do promise with your support a sustainable 
and adaptable counternarcotics strategy that builds capacities 
for the Afghan Government to address drug challenges post-2014.
    I thank you and I look forward to your questions.
    [The prepared statement of Ambassador Brownfield follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador. Mr. Capra.

  STATEMENT OF MR. JAMES L. CAPRA, CHIEF OF OPERATIONS, DRUG 
     ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Capra. Chairman Ros-Lehtinen, Ranking Member Deutch and 
distinguished members of the subcommittee, on behalf of 
Administrator Leonhart and the Drug Enforcement Administration, 
I appreciate your invitation to testify today regarding DEA's 
counternarcotics strategy in Afghanistan.
    Madam Chairman, I ask that my written statement be included 
in the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Capra. Before I get started I would like to thank you, 
Madam Chairman and Representative Kennedy, for visiting the DEA 
compound during your last trip. I'd also like to take this 
opportunity to extend the invitation to any interested 
committee members for a similar visit.
    DEA focuses international efforts on identifying and 
combating drug trafficking organizations that pose the greatest 
threat to U.S. interests. We accomplish this by analyzing 
illicit drug cultivation, manufacturing and transporting 
trends, transportation trends, tracking the flow of illicit 
proceeds and money laundering patterns, assessing the law 
enforcement capabilities and potential growth of our foreign 
counterparts, providing mentorship, training, and other 
assistance to help those counterparts build capacity and 
achieve strategic and tactical effectiveness, supporting 
programs promoting the Rule of Law worldwide and unifying and 
harmonizing efforts to bring to justice transnational drug 
traffickers and narcoterrorists.
    The United Nations has estimated that the international 
drug trade generates $322 billion per year in revenue, making 
drugs by far the most lucrative illicit activity. According to 
the U.N., revenues from other types of transnational criminal 
activities such as arms trafficking and alien smuggling are 
small by comparison.
    The narcotics trade in Afghanistan undermines the economic 
development, enables corruption, erodes government legitimacy, 
facilitates transnational organized crime, and threatens 
stability and security in the Rule of Law in Afghanistan and 
across the region.
    The Taliban receives millions annually from the narcotics-
related activities. With poppy cultivation increasing in the 
country, it can be assumed Taliban profits will also continue 
to rise fueling further instability worldwide.
    DEA is fully supportive of the Government of Afghanistan 
and its national drug control strategy. This strategy reaffirms 
U.S. commitment to breaking the narcotics insurgency nexus in 
Afghanistan and reinforcing the legitimacy of governmental 
institution. With the expected drawdown of U.S. combat forces, 
DEA efforts will remain focused on supporting counternarcotics 
programs which are both effective and sustainable. We 
understand these challenges. With the assistance of our 
interagency colleagues we stand ready to tackle the mission.
    DEA will transition our role in Afghanistan to correspond 
with traditional DEA overseas operations. We will continue to 
collect drug-related intelligence supporting domestic DEA 
investigations, as well as joint investigation with our host 
nation counterparts. To meet this commitment, DEA must maintain 
a sufficient staffing level in Afghanistan.
    DEA continues to develop the capability and capacity of the 
special vetted units of the counternarcotics police in 
Afghanistan to address the illicit drug trade. Our Afghan 
partners are already conducting independent investigations and 
trying and convicting drug traffickers in Afghan courts.
    The threat from the drug trade in Afghanistan is far from 
over. It is critical that we sustain the positive momentum to 
preserve security gains made over the past decade.
    Administrator Leonhart and the men and women of the DEA are 
committed to standing with our interagency colleagues and 
Afghan counterparts to build a sustainable and effective 
counternarcotics program in Afghanistan that protects U.S. 
national security interests.
    Madam Chair, I thank you for your time and look forward to 
your questions.
    [The prepared statement of Mr. Capra follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. Thank you, sir. Ms. Logan, thank you very 
much.

      STATEMENT OF MS. ERIN LOGAN, PRINCIPAL DIRECTOR FOR 
   COUNTERNARCOTICS AND GLOBAL THREATS, OFFICE OF THE UNDER 
        SECRETARY OF DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Ms. Logan. Thank you, Madam Chair, Ranking Member Deutch, 
and other members of the subcommittee for the opportunity to 
talk to you today about the Defense Department's 
counternarcotics or CN work in Afghanistan and our plans post-
2014.
    As the members of the subcommittee know well, since 2001 
the United States has made an extraordinary investment in blood 
and Treasury to eliminate the terrorist safe haven that 
Afghanistan had become. To date, 2,303 Americans have lost 
their lives in Operation Enduring Freedom, another 19,639 have 
been wounded. DoD has invested approximately $2 billion in 
dedicated CN training and programs which is a small fraction of 
the over $570 billion the nation has spent on the war since 
2001.
    That said, we do believe that $2 billion has been well 
spent. We have CN seed, if you will, that has now sprouted and 
it includes all of the elements that we believe we need to 
successfully grow, but that growth will only happen if we 
nurture and protect that which we have planted.
    As we look at the future for Afghanistan, it is impossible 
to envision success without sustaining an Afghan capability to 
fight the violence and corruption created by the drug trade. In 
addition, we cannot ignore the growing threat to ourselves and 
our allies. Our Canadian partners estimate that 90 percent of 
the heroin on their streets comes from Afghanistan. They also 
believe they are seeing more heroin than their user population 
can absorb.
    We must all be sensitive to information like this when 
combined with the Governor of Vermont issuing a State of the 
State speech focused entirely on Vermont's exploding heroin and 
opiate problem. We have to realize and be vigilant there is a 
possibility that Afghan produced heroin will become more 
available across the United States. DoD as always is committed 
to disrupting the flow of these drugs as far away from our 
shores as possible.
    Our CN strategy for post-2014 can be summarized by saying 
that we believe we must focus in three key areas, continued 
support for vetted units, continued aviation capacity building, 
and the continued leveraging of our international and 
interagency capabilities.
    First, the vetted units. These units have shown that they 
are willing and able to do the job, and more and more vetted 
units are now able to plan, execute, and follow through on CN 
missions on their own. For example, in December, on December 
18th, the DoD supported, DEA mentored Sensitive Investigative 
Unit was able to use judicial wire taps to build a case that 
led to the arrest of two criminals, the seizure of 660 grams of 
heroin, 500 boxes of ammunition, 40 remote controlled IEDs, and 
75 rocket propelled grenades. This is a great example of using 
CN capability to disrupt and remove lethal threats from the 
battlefield.
    Second, our continued support for aviation capacity 
building. I cannot overstate how vital we believe this is for 
the terrain of Afghanistan. For any security effort and 
certainly to run effective CN operations we must enhance the 
effectiveness and safety of the aviation unit. My office's 
focus has been the Special Mission Wing which has demonstrated 
the capability to completely plan and execute operations 
without international assistance. The Special Mission Wing is 
just now starting to get the aircraft they need to 
simultaneously run operations, continue training personnel, and 
conduct more intensive aircraft maintenance training.
    As has been mentioned by my colleagues, our experience in 
Colombia and elsewhere illustrates that it can take more than a 
decade for aviation capability to become self-sustaining. In a 
nation like Afghanistan, the pressures will be very high and it 
may take longer, but with sustained support we are confident 
the Special Mission Wing can continue to progress.
    Third, I would be remiss if I don't point out that the 
vetted units and aviation capability are part of a complete 
structure that the interagency and international community have 
worked hard to create. You'll see in my written testimony a lot 
of examples, but one thing that I'd like to highlight is that 
we believe the drawdown in Afghanistan demands that we explore 
creative ways to retain some of the effective targeting and 
intelligence fusion that we've been able to develop with our 
international interagency partners. Starting small, we believe 
we can support a regional hub for those capabilities by 
modestly expanding our current work done by law enforcement 
intelligence to facilitate interdictions, seizures, 
investigations, and prosecution. This would be done by slowly 
expanding the successful but small Operation Riptide already in 
Bahrain.
    Our vision is to create a reach back capability for 
Afghanistan and a more effective capability for targeting the 
illicit traffic that is departing the Mokran coast of Pakistan 
and Iran to go to Africa and beyond.
    One great example our Canadian partners have is the HMCS 
Toronto had seven seizures in 2013. We estimate at DoD that 1 
percent of the value of what they removed from the high seas is 
equal to the amount of funding necessary to outfit a platoon of 
insurgents.
    A regional targeting center would allow us to retain these 
valuable interagency international partnerships. Again, we 
believe that the fight against illicit heroin networks in 
Afghanistan is vital and an important component of insuring 
that we honor the sacrifice that we have already made. This 
effort is also necessary to protect vulnerable populations 
globally, not just from the scourge of addiction, but also from 
the corruption and violence these networks bring. Our 
adversaries make good use of these networks to destabilize 
territory and hurt U.S. interests. We must be equally committed 
to countering these threats with our networks of creative and 
capable partners both at home and overseas. I look forward to 
your questions.
    [The prepared statement of Ms. Logan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, and I agree about 
the importance of those DEA wire intercept centers. We toured 
the facility and it was very, very impressive.
    Last year, as we know, we saw a significant increase in 
poppy cultivation to record levels which is a huge setback to 
our efforts to cut off that link between extremist groups and 
the drug trade. The vast majority of poppy is cultivated in 
some of the most dangerous, least secure areas of Afghanistan 
operated and controlled by the Taliban and other extremists. 
Which U.S. Government agency is in charge of coordination 
efforts for counternarcotics programs in Afghanistan? I'll let 
you ponder that one.
    Also, the drawdown has already caused our agencies to 
decrease their staffs and their presence in Afghanistan and we 
still don't know what the post-2014 footprint will be. This 
uncertainty affects more than just our military presence, but 
it impacts our strategic goals that we're aiming to accomplish 
in Afghanistan, including counternarcotics efforts.
    How heavily does the uncertainty about this post-2014 
decision weigh over our plans for future counternarcotics 
efforts? How effective can we be with a minimal to perhaps zero 
troop presence?
    Mr. Capra, you testified that sustaining successful 
security transition to Afghan forces will rest, in part, on 
limiting insurgent's access to drug-related funding and the 
support that they get. And in response to this challenge, DEA 
reopened the Kabul country office. At its peak, DEA had 97 
authorized positions in Afghanistan plus a number of contract 
employees. Did DEA receive the proper number of staff that you 
requested from the Embassy? And, if not, why not? And we're now 
entrusting the Afghan counternarcotics forces to do a job that 
is arguably tougher now than it was before, and they will have 
less U.S. support with which to do it. We've made remarkable 
progress in training their forces, that is true, but I'm not 
sure that they have the capability to handle this very serious 
threat to both Afghan and U.S. national security.
    SIGAR in a 2009 audit has criticized INL for 
Counternarcotics Justice Center. Secretary Brownfield, what are 
your thoughts about the audit, and what is the current capacity 
of the Afghan forces for counternarcotics operations? Thank 
you.
    Ambassador Brownfield. I'll start, Madam Chairman, and pass 
the DEA staffing question, obviously, to the good Dr. Capra 
seated to my side.
    All of the questions are excellent. Let me try to knock off 
the three that I believe most directly apply to me. First 
question, who is responsible for coordinating strategy and drug 
policy in Afghanistan? Madam Chairman, we have an interagency 
U.S. Government strategy that was blessed through the White 
House-managed interagency process in 2012 and produced in 
December of that year.
    Since that time, the three organizations represented at 
this table, DoD, DEA, and INL have all done our own review and 
developed our own modifications and adjustments based upon the 
expectation that 2014 is a transition year. And we have 
attempted to answer the question for our individual agencies 
where will we be going post-2014 in terms of our drug efforts? 
Who is responsible for coordinating in the field in 
Afghanistan? Probably, I'm the closest to the stucky in this 
regard. It is the United States Ambassador, but he expects his 
INL director to pull together at least in some sort of 
strategic and policy way all of those players who are working 
the drug issue in Afghanistan.
    The 2014 and beyond footprint. You put your finger right on 
the issue, Madam Chairman. Everyone at this table would like to 
know with great precision how many people will we have 
available for this mission after 2014. And the truth of the 
matter is we still do not know. This falls into the category of 
those variables I was talking about in my statement.
    We do not know what is the nature of the security 
relationship, whether we will have a BSA and what it will say, 
who will win the election in April of this year, what will be 
the number of resources that are available to us out of the FY 
2013 and the FY 2014 appropriations bill, and what the other 
international players will be doing. We are obligated, you pay 
us to put together the best possible set of policies and 
programs that allow us to adjust to whatever those variables 
eventually deliver.
    Finally, thank you for the question on the Counternarcotics 
Justice Center. In a hearing across the way about 3 or 4 weeks 
ago I did hear from the Special Inspector General for 
Afghanistan Reconstruction comments in terms of the CNJC. They 
surprised me because they were almost 180 degrees different 
from my own perspective. I believe the CNJC is one of the great 
success stories of counternarcotics in Afghanistan today.
    When I was there a week ago, I inaugurated a new detention 
facility at that Justice Center for one simple reason. They are 
investigating and prosecuting so many cases that they did not 
have enough detention space to hold the accused during the 
process of the trial. And we needed to build an annex. They are 
investigating well, prosecuting well. They have a conviction 
rate in the high 90s. It is widely regarded as one of the 
success stories of Afghanistan and, in fact, there are a number 
of other elements of the Justice sector that are hoping that 
they could mimic or do a similar operation to the CNJC. Dr. 
Capra, over to you.
    Mr. Capra. That's why I like having meetings with 
Ambassador Brownfield.
    Madam Chair, a couple of questions you raised. First and 
foremost, our footprint. Obviously, when we started there was 
at 97. What I'd like to do is talk about first and foremost, 
we, DEA, would not have the ability to operate there without 
the funding that we get from Department of State and DoD. 
Nearly this year, Fiscal Year 2013, $30.5 million from 
Ambassador Brownfield I like to call it, another close to $15 
million from DoD. We spend, DEA's direct appropriations, $17 
million for 13 positions, three pilots, and three fast teams, 
but in order to operate we would have needed a lot more 
personnel than we did. Now, this year comes in, we know that 
the U.S. Government drawdown is going to impact everybody. We 
got asked if we're pulling out of forward operating bases just 
like the military did. What's our plan for the future when 
we're looking at Afghanistan? And this is never done in a 
vacuum, meeting with our interagency partners, as well. So, 
what we do just like you're familiar with any other part of the 
world where DEA operates whether it's South America or Europe 
is we get the biggest bang out of our buck with our SIUs and 
our NIUs. It's a gold standard anywhere in the world so with 
effective vetting and standing these teams up, training with 
our people, so in a combat theater we were pushing out with 
them constantly, so we knew that was going to be less and less 
likely. So, how could we operate in that region? We put a plan 
together with certain assumptions that have to be in place. One 
is funding, are we able to have continued funding?
    The next certainly is security, the security of our men and 
women there, as well. So, all that goes into, and I don't want 
to rehash what Ambassador Brownfield said, but it is, we're not 
sure what's going to happen. But we are moving toward a 
drawdown, and by the end of this year we will probably have 
somewhere around 47 people in country. That includes still 
rotating fast members there once a quarter. And really the crux 
of what we're doing there is building capacity and capability 
of the Afghan Counternarcotics Police. They're the vetted 
teams, and having them to be able to stand on their own, and in 
some instances, or actually a lot of instances they're doing 
that right now.
    In this past year, they've done over 2,400 operations, 
2,400. They've arrested over 2,200 individuals, they've seized 
over 121 tons of narcotics and another 32,000 kilos of 
chemicals. And that's not including the typical weapons and 
hardware, communications hardware, IED making materials that 
are out there. So, when you ask, and the right thing is to ask 
sometimes is what is--we started with nothing when we got 
there. We started with nothing, and here we've developed SIs, 
NIs, TIs, judicial wire intercept program which you know is 
critical anywhere in the world. And then we have to look at it 
from a regional approach, too. What will happen? So we're not 
sitting here waiting and saying okay, we're also looking at 
being able to partner with our regional partners in the region 
in Central Asia, all a part of the plan.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Capra. Thank you, ma'am.
    Ms. Ros-Lehtinen. And, Ms. Logan, if you have anything to 
add.
    Ms. Logan. The only thing I would add is, you know, most of 
the places where we do our counternarcotics work are not U.S. 
declared war zones, so this is about us transitioning, as well, 
to using some of the strategies and the approaches we've used 
elsewhere.
    It will be more difficult, Madam Chair. You're exactly 
right. I mean, it's a very hard problem. And we always see ebbs 
and flows, and so while I think all of us don't dispute the 
sort of facts on the ground, I think how you interpret them, as 
my colleague said, we see a lot of new but really impressive 
capability. Is it enough? Will it answer the question, you 
know, the issues the country is going to face in the next 10 
years? Probably not enough, it's not going to solve the whole 
problem, but we can still keep and grow that capability. And 
the country itself, I mean, we've seen a lot of evidence that 
the people of Afghanistan do not want to be a narco state. This 
is not something they're comfortable with, so we have a lot of 
material to work with, but we will transition to something that 
is more similar to what we do around the globe as opposed to 
what we've been able to do in Afghanistan.
    Ms. Ros-Lehtinen. Thank you so much, and thank you for the 
committee members putting up with how long I went on that. Mr. 
Deutch, you're recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    Ms. Logan, you said in your testimony, you gave one example 
of the Sensitive Investigative Unit that used judicially 
authorized wire intercepts to build the case that led to the 
arrest of two criminals, seizure of 660 grams of heroin, 500 
boxes of ammunition, 40 remote control IEDs and 75 rocket 
propelled grenades.
    Where do these RPGs come from, and where are the huge 
increase in arms that the narcoterrorists use, where do they 
come from?
    Ms. Logan. Without getting into too many specifics, I would 
say, you know, a concern that DoD has across the board and 
certainly in this region is that the same networks that move 
drugs move everything else. So, we see links in these networks, 
we certainly see flow.
    One of the goals we have with this potential regional cell 
that we'd like to pull back into the Gulf to give some reach 
back ability is to get greater fidelity on some of those 
networks. As I mentioned, we've seen a lot of things going from 
the Mokran coast which is both Iran and Pakistan that flow 
actually into Africa, but we see it flowing out of Africa to 
the rest of the world. We see things going through the 
neighboring countries and into Afghanistan from neighboring 
countries, so we are increasingly concerned about trying to 
develop not just the CN approach but a counter network approach 
because these networks are linked. They're not all the same, 
but they have linkages and they have vulnerabilities that we 
are trying to explore.
    Mr. Deutch. Who do you work with as you take that network 
approach, because if--and, certainly, the goal is--I mean, if 
at the same time we can address the narcotics and heroin, but 
also tackle RPGs and the tremendous flow of weapons we need to 
do that. Who do you work with----
    Ms. Logan. It's very much an interagency effort along with 
international. I mean, the British are side by side with us in 
all of this. As you know, our Joint Improvised Explosive Deice 
Defeat Organization, the JIEDDO has led on specifically finding 
the networks that move the arms and the precursors for that. 
And then we try to overlap that in country and back here. 
Actually, multiple commands for DoD, it's not just Central 
Command but COCOM, Central Operations Command also tries to 
draw that fusion. And then all of us using our partners, DEA, 
State Department, FBI, other law--you know, we really try to 
take a very holistic view of understanding--Treasury is a huge 
partner for us in all of these sort of network attack 
strategies and trying to map that out.
    Mr. Deutch. Okay, great. Thanks. I appreciate that.
    The U.N. Office on Drugs and Crime estimates that 90 metric 
tons of heroin travels from Afghanistan through Central Asia, 
worth about $750 million. Can you discuss our operations? I'll 
actually open this to the panel, our operations with 
Afghanistan's neighbors on stemming the flow of drugs through 
their countries all throughout Central Asia, in particular 
Russia, the endpoint for much of Afghanistan's originating 
narcotics for trade routes through Central Asia, Iran for 
shipments headed west, Pakistan for shipments headed east. Can 
you describe those relationships and those efforts, Ambassador 
Brownfield?
    Ambassador Brownfield. I'll start, Congressman, and then 
yield the floor after I've offered my input.
    We began a systematic and structured effort to develop a 
regional program that involved the five Central Asian Republics 
which yes, I can name; Kazakhstan, Krgyzstan, Uzbekistan, 
Tajikstan, and Turkmenistan. Thank you very much. Plus 
Afghanistan, the Russian Federation, and ourselves. And the 
objective was to develop an initiative that would tie them all 
together in some way with the same database, the same 
information, the ability to coordinate operations.
    I launched this effort in 2011 with a trip to the region 
and we called it the Central Asia Counternarcotics Initiative, 
or CACI. It has not yet been a resounding success, and I 
clearly misread several signals. One signal was the extent to 
which the five Central Asian nations are comfortable 
cooperating with one another. And I discovered that, in fact, I 
thought there was more enthusiasm for that than there really 
was.
    Second, I misread what I thought would be a very attractive 
offer for the large nation to the north to give them access to 
intelligence and operations in real time that was happening in 
Afghanistan and allow them to influence. And, in fact, found 
they were not as enthusiastic about that as I hoped they would 
be. So, the initiative is still on the books. We still have a 
concept and are making step by step progress.
    We have--we are working with an organization that would 
serve as the coordinating center called CARICC or the Central 
Asia Regional Information Coordination Center. We are working 
with the United Nations organization that does drugs, UNODC to 
provide training for specialized units. We are moving in the 
right direction, we're not there yet. Dr. C.
    Mr. Capra. Congressman, thank you. Again, part of the 
strategy that we have is to be able to look at a 
counternarcotics strategy on a regional approach. So to follow 
on with Ambassador Brownfield, what we're looking at is the 
Central Asian states, as well, including high-level talks with 
Russia to exchange information back and forth. A lot of this 
heroin that's leaving the country is going into the hands of 
Russian organized crime and the like. So, to dialogue with 
those Central Asian states where some of the offices--we have 
offices in some of them, and in some of the offices, as 
Ambassador Brownfield said, it's a little bit more challenging 
as we're working there, but the object is before we were even 
there we had this containment type of strategy in the region to 
address what was going on there. And it's to follow through 
with that, it's to take a look at the regional approach, it's 
continuing to dialogue knowing full well that we're going to 
drawdown, you have to be able to do that.
    Mr. Deutch. Can I have 30 more seconds, Madam Chairman? 
Thank you. I appreciate the efforts and I understand having 
recently spent time in the region, as well, that your 
assessment I think is accurate about the way that the countries 
interact with one another. But I'd just like to know whether 
each of those countries individually, do you believe that each 
of the countries on their own is committed to this effort?
    Ambassador Brownfield. Sure, the tough questions you always 
defer to me, Dr. Capra.
    The answer, as is usually the case when you're talking 
about a number of countries, Congressman, is some yes, some 
less yes for a variety of reasons. One or more country might 
feel that somehow it is separate from this problem and, 
therefore, they don't have to address it as intensely as 
others. Some may see that they have a national interest perhaps 
in trying to either absorb some of this traffic or direct it in 
some other way. Some are undoubtedly playing some degree of 
regional politics in terms of what they will do or what they 
will not do. They all have a common interest. To my knowledge, 
no serious democratic or even remotely democratic government in 
the world wants to become a narco state, a country who's 
government is dominated or controlled by narcotics trafficking 
organizations. They all have that common interest. A couple of 
the seven are moving at a faster speed than others, and I think 
I'd answer your question that way.
    Mr. Deutch. I appreciate it and I know my time is up. I'm 
heartened by the approach that focuses on networks and just not 
only on CN. It is true they don't want to become narco states, 
but it's also true that through these networks the spread of 
arms through their states and those who possess the arms is 
another major consideration they should have in working 
together with us and with each other to try to address this. I 
thank the panel very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Mr. Weber, you're 
up.
    Mr. Weber. Thank you. Ambassador, I noticed you rattled off 
about five countries, Tajikstan, Uzbekistan, Pakistan, why 
don't you take a stan. I wasn't sure what all they were. Can 
you go back through those again?
    Ambassador Brownfield. If that's a challenge, Congressman, 
I certainly can, thank you very much. I said Kazakhstan, 
Krgyzstan, Uzbekistan, Tajikstan, and Turkmenistan. That is 
KKUTT, and those are the five Central Asian Republics.
    Mr. Weber. Okay. I'm looking at it on a map. Okay. Golly. 
And I don't know who this question is for. Afghanistan is a 
narco state. Does the DEA, do we have a track record of coming 
into a situation like this before and being able to clean it 
up, or is this a first?
    Mr. Capra. Congressman, Afghanistan is a completely 
different theater as a combat theater, so it presented a whole 
bunch of new challenges. There are, I would submit, there are 
some similarities in places around the world that when we first 
started, for instance, when I first started as a young agent in 
New York, we never thought----
    Mr. Weber. New York was the battleground?
    Mr. Capra. Pretty much, it was part of it.
    Mr. Weber. Oh, you mean a different country.
    Mr. Capra. So we looked at Colombia at a time and said 
would we ever be able to work with Colombia. That's 27 years 
ago. I just was down in Colombia again. Colombia has been and 
is----
    Mr. Weber. Yes, but it wasn't in civil war, and it wasn't 
as desolate as this is.
    Mr. Capra. No, no, and I'm not suggesting--and there was a 
government there, but the narcotics trade had taken hold of 
Colombia. And if we remember, you had cartels attacking the 
Supreme Court killing judges. So, yes, I'm not trying to make 
both comparisons, but you said what is it? Well, we decided to 
hang in there, Plan Colombia took effect. Now we have countries 
like Algeria that go to Colombia to learn about best practices 
in counternarcotics.
    Mr. Weber. Okay. Well, of course, I realize Colombia is how 
many hours away by plane?
    Mr. Capra. From here we can get there pretty quickly.
    Mr. Weber. I mean, 4 or 5 hours.
    Mr. Capra. Five hours.
    Mr. Weber. And that's not the case in Afghanistan.
    Mr. Capra. No, sir. No, sir.
    Mr. Weber. So, in Afghanistan, I don't know who this 
question is for, who is your best ally in cleaning this up? Is 
it the Afghanistan Government?
    Mr. Capra. For our best ally it's the law enforcement 
component which is the Counternarcotics Police in Afghanistan.
    Mr. Weber. And----
    Mr. Capra. It is--I'm sorry, go ahead.
    Mr. Weber. No corruption there?
    Mr. Capra. We face corruption everywhere, but let me go 
right into that, because that's one of the challenges that we 
face not just there but anywhere. Narcotics trade engenders 
lots of money, engenders corruption. It just does. Since our 
SIUs were stood up, these are our Sensitive Investigative 
Units, our Narcotics Investigative Unit which is the action 
arm, since they've been set up we have conducted in the past 
year alone, there have been over 700 individuals that have been 
convicted. Of them, of those convictions, 50 of them have been 
government officials.
    Mr. Weber. Okay, and that leads me to my next question. So, 
when you go in to accuse somebody, arrest somebody, detain, 
whatever, they have a constitution in Afghanistan?
    Mr. Capra. To the----
    Mr. Weber. So, you all operate within the parameters of 
their constitution.
    Mr. Capra. The Afghan law, that's right. We leave it--
right, exactly. Exactly.
    Mr. Weber. Okay.
    Mr. Capra. Now, we're doing things jointly, they are 
bilateral investigations so DEA is conducting investigations 
alongside our partners.
    Mr. Weber. Okay.
    Mr. Capra. In some instances we've indicted groups here in 
the United States, as well. But the Afghans are using their 
justice system to convict, and they've got a pretty 
significant--it's not perfect and I get that, but we're talking 
about a conviction rate of over 90 percent.
    Mr. Weber. Okay.
    Mr. Capra. So, we're again, when you look back say what did 
you start with?
    Mr. Weber. Do you all have, does the DEA, does our drug 
interdiction forces, do they have prosecute--I don't know--
immunity? I mean, if they make a mistake, I know there was some 
discussion about the Afghanistan leaving people there. Were you 
all part of that?
    Mr. Capra. I'm not sure what----
    Mr. Weber. In other words, they were saying that--Karzai, I 
think, wouldn't agree to the--there was some kind of immunity 
that was going to be granted.
    Mr. Capra. I'll turn it over to you.
    Mr. Weber. Am I misremembering, Ambassador?
    Ambassador Brownfield. Congressman, on a case by case basis 
there may be matters of immunity, for example, sitting members 
of the national legislature.
    Mr. Weber. What I'm saying is if as a DEA agent you got 
there and you hurt somebody in your line of work. Are you 
protected as long as you acted in good faith?
    Ambassador Brownfield. All U.S. Government personnel in 
Afghanistan today either operate under a version of the Status 
of Forces Agreement that covers military personnel, or if they 
report up to the Chief of Mission, to the United States 
Ambassador, they have diplomatic protection. And to that extent 
they have a degree of immunity.
    Mr. Weber. Gotcha. Mr. Capra, you said 121 tons, I think 
you seized 32,000 tons of chemical, and I did a little research 
on Afghanistan, 31 or 2 million people and they're not exactly 
thriving industrial complexes. Where are they getting--who's 
supplying them?
    Mr. Capra. Well, they're getting chemicals from different 
parts of the world. They're using--these are rudimentary places 
out in the middle of the desert that they're--but the narcotics 
trade is funding the insurgency.
    Mr. Weber. Okay.
    Mr. Capra. And those drugs or those finished products are 
leaving Afghanistan and some are being used there by the 
population.
    Mr. Weber. Okay. And I notice if I could tell on my map on 
my iPad, it looked like it had a tiny, tiny border with China, 
Afghanistan does. How many miles is that, do you know?
    Mr. Capra. I'd defer to the Ambassador.
    Ambassador Brownfield. It's a very--the part that actually 
borders on China is minuscule. What it is, it's a little 
corridor. You'll see from your map, it's called the Panjshir 
Valley, and it's about 100 miles long, and I'm guessing the 
actual border with China is maybe something as small as 10 or 
15 miles.
    Mr. Weber. Okay. Are you seeing drug trade going in and out 
of China?
    Ambassador Brownfield. I do not think we are, Congressman, 
not out of Afghanistan. China, we believe, does have a growing 
drug consumption and abuse problem which is logical as its 
economy grows and it develops a middle class. Our sense is that 
most of the Chinese market is supplied out of Burma/Myanmar and 
not out of Afghanistan.
    Mr. Weber. And final question, forgive me, Madam Chair. 
What country would you say is our greatest ally in this fight, 
not counting Afghanistan? And what country is our biggest 
deterrent in this fight?
    Ambassador Brownfield. I could define that in dozens, if 
not hundreds of ways, Congressman. I will define it this way. 
The country that has been most willing to serve as an ally and 
a partner with us, to offer up resources and personnel and to 
jointly staff our programs, projects would be the United 
Kingdom, would be the British. I would give them the highest 
credit in that regard.
    I'm not sure how to define who would be the worst. I mean, 
among others the worst would be those who are not participating 
at all, and that's probably about 180 countries around the 
world.
    Mr. Weber. Well, clearly, you said Russia had organized 
crime, and they were going to Russia. So, if you could just 
choose a list of top three, if you could just mitigate with a 
magic wand the top three countries and get them uninvolved, 
would Russia be number one?
    Ambassador Brownfield. Yes, although----
    Mr. Weber. But I don't want to put you on the spot, but I 
mean to put you on the spot.
    Ambassador Brownfield. I mean, if you were to ask me would 
it be helpful if Russian citizens ceased using Afghan heroin, 
yes, it would. And I believe the Russian Government would agree 
with that, as well. They also have the objective of attacking 
their own heroin abuse problem.
    We could say the same thing about both of their--of 
Afghanistan's neighbors to the west and to the east, Iran and 
Pakistan are major consumers of the product, as well. And I 
don't want to make judgment calls on those two governments, but 
I have every reason to believe that they also would like to 
reduce the amount of heroin that their citizens are consuming.
    It's a complicated process, as you well know. It is not 
possible to deal with the drug issue in Afghanistan and say if 
we just solve this one issue, cultivation, or interdiction, or 
laboratories, or precursor chemicals, if we just solve one 
issue we have solved the problem. We have to solve all elements 
of the problem to some extent. That's the lesson we learned 
over 20 or 30 years in Colombia. When you finally focus on all 
elements of the problem you do deliver a long-term solution.
    Mr. Weber. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, excellent set of questions. 
Ms. Frankel, you are our clean up batter. Make it good.
    Ms. Frankel. Well, thank you, Madam Chair. As a junior 
member I often feel like I'm a character in the Agatha Christie 
novel, ``And Then There Were None.'' And I also want to say for 
the record that----
    Ms. Ros-Lehtinen. Means that you're the criminal then?
    Ms. Frankel. I don't know what that means.
    Ms. Ros-Lehtinen. I don't know.
    Ms. Frankel. Just for the record, Madam Chair, you and I 
are wearing red today with the other women in the Congress 
because today is in honor of the American Heart Association.
    Ms. Ros-Lehtinen. And we have to run over there as soon as 
you're done.
    Ms. Frankel. That's right.
    Ms. Ros-Lehtinen. Okay.
    Ms. Frankel. Heart disease kills more women than any other 
illness.
    Anyway, getting back to Afghanistan, I have a couple of 
questions. So, according to the data sheet that we received it 
says that the opium production in 2013 was equivalent to 
approximately 4 percent of Afghanistan's gross domestic 
product. So, can you just give me a general idea of what the 
other 96 percent is?
    Ambassador Brownfield. I don't claim to be an expert on the 
Afghan economy, Congresswoman. I would say that Afghanistan is 
still largely a rural country, so I would speculate that 
probably more than 50 percent of its gross domestic product is 
still agricultural produce of some sort. They have a limited 
amount of what I would call small level industrial and 
manufacturing, and they have some degree of minerals and 
mining. Beyond that, I think what you would see in Afghanistan 
is the economy you would expect from a country that's in--in 
terms of gross domestic product and per capita, GDP, probably 
in the bottom 5 percent of the nations of the world.
    Ms. Frankel. So, the farmers who are producing the opium--
is most of the direct toward the Taliban, or other illicit--
what we call an illicit group, rather than for the general 
well-being of Afghani population?
    Ambassador Brownfield. That's a terrific question and one, 
obviously, in which we have to be somewhat speculative since, 
as you well can imagine, farmers who are producing opium poppy 
and selling the poppy do not report either the sales or their 
motivation to any government organizations or offices.
    My own sense in Afghanistan, as by the way in most of the 
world where you find subsistence level farmers who are 
cultivating and selling an illicit drug, whether it's cocoa 
leaf in Latin America or opium poppy in Central Asia or 
Southeast Asia, and Burma and Myanmar is that the farmers 
themselves are subsistence level farmers. They are trying to 
make a basic living for their families. They are not inherently 
criminals. They are not even politically motivated and what 
they are trying to do. They conclude that they can make $500 a 
year if they grow wheat, but they can make $2,000 a year if 
they grow opium poppy, so they grow opium poppy.
    Now, they then sell it, and they sell it either to a 
terrorist type organization such as the Taliban, and thereby 
allow the Taliban to in a sense become the producer, the 
trafficker, and earn the real rewards because the subsistence 
farmer is not making a great deal, or they sell it to a 
traditional criminal organization.
    At the end of the day, that's where the Taliban, in 
essence, gets its revenue by selecting the regions where it has 
a substantial presence, where there is minimal security 
provided by the government, and either intimidating and forcing 
the farmers to cultivate and sell to them, or simply become the 
buyer of the product. That I would suggest is probably what we 
see in Afghanistan, just as I would suggest it's what you see 
in Colombia, Peru, or Bolivia with your subsistence farmer.
    Ms. Frankel. So, one of the focuses here is alternative 
development. And you feel like it is possible to provide them 
with some alternative that would keep them from growing opium?
    Ambassador Brownfield. Yes, Congresswoman, you put your 
finger right on what, obviously, has to be one of the elements 
of a program. And Jimmy Capra talked about interdiction which 
is absolutely essential, as is investigations, laboratory take 
downs, money laundering and so forth, but we have to address 
the problem, as well, at its opening on the chain, and that is 
cultivation.
    We have developed over the last 10 years three programs 
that are designed to address this issue, one that we call 
Governor-Led Eradication. It's a very simple program. We pay 
the governor of a province $250 for each hectare of opium 
poppy, that's 2.5 acres roughly, that the province eradicates. 
If they don't eradicate, they don't get paid. If they eradicate 
1,000, they get $250,000. Simple, hard to cheat on that. We 
count up what was eradicated and we then pay them.
    The second program is what we call the Good Performers 
Initiative. This is a program again with the governors in the 
provinces where we reach an understanding or a contract, and we 
say if you eradicate X number of hectares, let's say 5,000 
hectares, what we will offer for you is two schools, three 
clinics, four new roads, and an electricity grid that will 
address these two or three villages. Again, it's a good program 
because you can't cheat. First they eradicate, then the 
benefits flow into the province.
    The third program is directly on point for what you're 
describing, alternative development. This is the Helmand Food 
Zone that Mr. Deutch was talking about, and what I hope will 
become in the course of later this year the Kandahar Food Zone. 
This is where we will offer again together with the governors 
and the local government, and the Ministry of Counternarcotics 
direct alternative development assistance, not just a barrel of 
seeds so they can plant wheat instead of opium poppy but, in 
fact, the technology, the equipment, a road system that allows 
them to get their product to market, and general improvements 
in their villages that allow them to have a stake in their 
future. This is what the Food Zone project is all about.
    It's expensive, Congresswoman. That's why as we were 
addressing the realities of 2014 and beyond we have a flexible 
program that allows us to move from province to province. We 
don't have the resources to do it everywhere at the same time. 
We're not going to have those resources. I think we agree with 
that. We do have the resources to say the toughest area right 
now is Kandahar, for example, so we will do a Food Zone in 
Kandahar. We'll work it for 2 years, then we will see where the 
next target zone is, and move there. That's how we're trying to 
address the issue.
    Ms. Frankel. Madam Chair, may I ask----
    Ms. Ros-Lehtinen. Absolutely, yes.
    Ms. Frankel. Since it's just the three of us here. I think 
many of us have been very disturbed about what's happened to 
funds that we've--that's gone into Afghanistan, in military and 
in USAID, a lot of corruption, a lot of waste, a lot of fraud, 
all that. So, a question I have for you is how could we be 
certain that if we inject more resources into the kind of 
activities you're describing that we're not going to have the 
same waste, fraud, and corruption? And that's one part of the 
question.
    The other one is how much of the money do you think that 
has flowed into Afghanistan, the billions of dollars through 
the U.S. Government, has already gone into producing opium?
    Ambassador Brownfield. I'm not sure how to answer that 
question. I would say certainly none of the money that we have 
provided has gone into programs designed to produce opium, but 
I'm sure that's not your question. Let me answer----
    Ms. Frankel. Well, through corruption, waste, fraud, 
something is happening to some of that money.
    Ambassador Brownfield. And at the end of the day, I'm not 
going to be able to give you a good figure or even an estimate 
for Afghanistan at large since I, obviously, only do the 
counternarcotics part of it.
    I will tell you, however, that I feel pretty confident 
about the programs that we are managing with DEA, in 
particular, on counternarcotics for the following reason. For 
the most part, when we provide direct funding to the Government 
of Afghanistan, it is for acts that have already occurred and 
been verified which is to say what they have already 
eradicated, or what they have already interdicted, or what they 
have already taken down in terms of labs.
    In terms of the support that we're providing for the 
Special Units through DEA, DEA is working directly with them 
day in, day out, sometimes 24 hours a day. They've got very 
good visibility in terms of what they're doing, and they are 
vetted, which is to say assessed on a regular basis to 
determine whether any of the individuals have been corrupted or 
penetrated.
    Ms. Frankel. Well, what about through USAID? Isn't that one 
of the purposes was to have--was on economic redevelopment?
    Ambassador Brownfield. Sure, and I have to defer on giving 
you an answer there because, obviously, I cannot speak for 
USAID.
    Ms. Frankel. Is it just us, can I ask one more then? That's 
it, one more.
    Mr. Deutch. My friend and neighbor from Florida has----
    Ms. Frankel. Yes. So, what is your--any of you can answer 
this. In terms of the danger of the narcotic issue here in 
Afghanistan, do you see it--is it more of a health, more of 
terrorism-related? What do you think is the largest danger?
    Ms. Logan. Ma'am, I think we in DoD see it as genuinely a 
national security threat that will continue. As I mentioned 
this, and as was mentioned by my colleagues, the amount of 
money and the use of those funds by our adversaries for 
multiple nefarious purposes, this is not--it is tragic the 
actual usage issues, of course. We're all very saddened by 
that, and Afghanistan is facing a growing problem itself, but 
for us it's really about what else this pays for, and the 
instability and corruption that it breeds, as well, that makes 
it impossible for the people of that region and many other 
regions to reach their full potential to be honest. But it's a 
national security question for us. It really very much 
fundamentally is, and I let my colleagues answer, too.
    Mr. Capra. Just very quickly, ma'am, the narcotics trade 
generates billions of dollars, and those billions of dollars 
have the ability to destabilize not just neighborhoods but 
entire nations, especially those who are prone to weakness and 
corruption. They have the ability to fund extremist groups 
around the world, political organizations, and that's what we 
see that's going on there in Afghanistan. That's the threat of 
that narcotics trade. Mr. Ambassador.
    Ambassador Brownfield. Well, I'll close it, Congresswoman, 
by saying three things. There are three threats out there. One, 
one of the world's largest terrorist organizations receives 
most of its domestic funding from narcotics. That's the Taliban 
and that's the Afghan heroin industry. Second, it represents a 
threat to the stability, and for that matter future of 
democracy in Afghanistan. We have invested a substantial amount 
of U.S. national effort in that nation. One could argue that it 
is in our interest to ensure that it does not become a victim 
to drug trafficking. And third and finally, you can argue about 
the number. I've heard figures between 4 and 7 percent of U.S. 
heroin consumed in the United States is of Afghan origin, but 
there's absolutely no reason why that couldn't surge. There's 
nothing magical that keeps Afghan heroin from coming to the 
United States, and if that happens it is a direct threat to the 
people and communities of the United States of America.
    Ms. Frankel. Thank you. Mr. Deutch, I just have one last 
question, which is then which is the agency that you would 
designate to do the alternative redevelopment work?
    Ambassador Brownfield. It would be between me from the INL 
side and USAID. USAID does rural development. Now, they are the 
ones who work with farmers and farming programs. I do the drug 
programs. It is my responsibility to lay out the 
infrastructure, if you will, for an alternative development 
program, and USAID can and, in fact, very effectively does in 
Afghanistan the alternative development part of it.
    You ask legitimate questions about diversion and 
corruption, but I do hold to my position that what USAID is 
doing in alternative development is, in fact, having impact 
where it is applied.
    Mr. Deutch. Anything further, Congresswoman Frankel? With 
that, I thank----
    Ms. Frankel. If you did ask, I do have one more. I'm taking 
advantage----
    Mr. Deutch. You're taking advantage of----
    Ms. Frankel. Yes. I don't know whether you can answer this 
question, but in our last budget I believe we reduced the USAID 
budget by half, so I'm just curious what you think that will 
have on effect what you're trying to do?
    Ambassador Brownfield. Congresswoman, let me tell you, you 
not only reduced USAID's suggested budget by half, you reduced 
everyone's budget for foreign assistance in Afghanistan by 
half, including my own. Now, you didn't write it into the law, 
you may recall. You may not have reread the 1,500 pages of the 
FY 14 Appropriations Bill yet. It was written as a statement of 
the managers of the bill, but it does, in fact, suggest 50 
percent. And we're going to have to work our way through that 
issue. We in the Executive Branch, you in the United States 
Congress, we're going to have to talk about it. We're going to 
have to determine to what extent does this reflect the strong 
will of the United States Congress. And then we from our 
perspective have to say to you what the impact is going to be 
if we walk down this road. I think we have a great deal of 
conversation ahead of us on this issue before we reach final 
understanding as to how we're going to proceed.
    Mr. Deutch. The gentle lady yields the balance of her time.
    With that, I thank the witnesses for their patience, for 
their testimony today and for their service to the country. And 
that concludes the hearing, we're adjourned.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
